Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141
87147

STATE OF NEW YORK,

SS:

COUNTY OF NEW YORK

AFFIDAVIT OF SERVICE

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 1 st day of June 2021 deponent served 3 copies of the within

BRIEF IN OPPOSITION
upon the attorneys at the addresses below, and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Daniel Boaz Tilley
ACLU Foundation for Florida, Inc.
4500 Biscayne Blvd., Suite 340
Miami, FL 33137
(786) 246-8980
At;torneys for Petitioner

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on June 1, 2021, pursuant to Supreme Court
Rule 29.5(c). All parties required to be served, have been served.

~w-J
Howard Daniels

r/)~

Sworn to me this
June 1, 2021
Jasmine Williams
Notary Public, State of New York
No. 01 Wl6397949
Qualified in Queens County
Commission Expires September 16, 2023

Notary Public

Case Name: Keohane v. Florida Department of
Corrections Secretary

